           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE ACCURACY OF THE GARNISHMENT OF
         TITLE II BENEFITS BY THE
    SOCIAL SECURITY ADMINISTRATION’S
  COURT ORDERED GARNISHMENT SYSTEM

      January 2010   A-15-09-19063




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      January 15, 2010                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Accuracy of the Garnishment of Title II Benefits by the Social Security
           Administration’s Court Ordered Garnishment System (A-15-09-19063)


           OBJECTIVE

           The objectives of our audit were to determine whether the Social Security
           Administration’s (SSA) Court Ordered Garnishment System (COGS) accurately
           (1) calculates the allowable garnishment amount and (2) documents payment amounts
           to third parties and State child support enforcement agencies.

           BACKGROUND

           The Social Security Act

           The Social Security Act (Act) 1 protects a beneficiary’s right to receive Social Security
                     2                                                                      3
           benefits directly and use them as he/she sees fit. Specifically, section 207 indicates,
           in part, that no moneys paid or payable under Title II of the Act “. . .shall be subject to
           execution, levy, attachment, garnishment, or other legal process. . .” except by a
           provision of law that “. . . does so by express reference to this section.” Section 459(a) 4
           contains a specific exception to section 207. Pursuant to this section, Title II benefits
           are subject to legal process 5 brought by a State Agency or individual obligee to enforce


           1
            Social Security Act § 207, 42 United States Code (U.S.C.) § 407 (applicable to Title XVI benefits
           pursuant to section 1631(d)(1) of the Act, 42 U.S.C. §1383(d)(1)).
           2
            Social Security benefits include Old-Age, Survivors and Disability Insurance established under Title II
           and Supplemental Security Income established under Title XVI of the Act.
           3
               Social Security Act § 207, 42 U.S.C. § 407, Assignment.
           4
               Social Security Act § 459(a), 42 U.S.C. § 659(a), Consent to Support Enforcement.
           5
             SSA, Program Operations Manual System (POMS), GN 02410.001 B.4. defines garnishment as a type
           of legal process by which benefits are taken to pay a beneficiary’s child support and/or alimony obligation
           to a third party.
Page 2 - The Commissioner


the legal obligation of a Title II beneficiary to provide child support 6 and/or make
alimony 7 payments. Title XVI payments are not subject to levies or garnishment. In
2008, SSA made approximately 607.2 million Title II benefit payments. Of the
607.2 million, SSA garnished 336,251 (less than 1 percent) benefit payments, totaling
$510 million.

Social Security Administration Garnishes Title II Benefits

Once a garnishment order is received, SSA’s overall responsibility for processing a
                                 8
garnishment order is as follows.

    1.   Review garnishment orders to determine whether to honor or reject 9 them.
    2.   Notify the involved parties of SSA’s determination.
    3.   Make necessary adjustments to its records.
    4.   Issue payments timely.

Before Court Ordered Garnishment System

Before COGS was established in March 2006, SSA established a garnishment policy
where the court order was served at the local field office (FO) and forwarded to the
jurisdictional processing center (PC) for manual processing. However, because there
was no uniform method in the application of the policy, each PC had a different way of
controlling garnishment cases based on the volume of garnishments received. This
garnishment process had certain limitations as follows.

    •    PCs manually processed garnishment adjustments of Title II benefits.
    •    No distinct data were on the Master Beneficiary Record (MBR).
    •    Local programs controlled the repetitive payments.
    •    Notices were a manual process.



6
 POMS, GN 02410.200 D., defines child support as periodic payment of funds for the support and
maintenance of a child(ren) subject to, and in accordance with, State or local law.
7
  POMS, GN 02410.200 E., defines alimony as periodic payment of funds for the support and
maintenance of a spouse or former spouse subject to and in accordance with State or local law. It
includes, but is not limited to, separate maintenance and spousal support.
8
  POMS, GN 02410.210, indicates garnishment orders are reviewed to determine whether to honor or
reject them, notify the involved parties of SSA’s determination, make necessary adjustments to its records
and issue payments timely. In addition, information was taken from a PowerPoint presentation on the
Office of Retirement and Survivors Insurance Systems (ORSIS) website.
9
  POMS, GN 02410.205 B., indicates that SSA would return a garnishment order to the court if it is
delivered by a method not in accordance with the law of the state in which it is issued, and would return
the order to the issuing entity if the order specifically names someone other than SSA (e.g., General
Electric) as the “garnishee,” “employer,” “income payer”, etc.
Page 3 - The Commissioner


As a result, the Deputy Commissioner for Operations (DCO) requested that SSA’s
Office of Systems automate the garnishment process.

Court Ordered Garnishment System

Overview

COGS is a national system that automates withholding from beneficiaries in compliance
with State- or court-ordered garnishment requests. COGS automated many of the
manual tasks that were involved for the PCs, such as tracking payments and court
orders via a local database; deducting the garnishment from the beneficiary’s payment;
issuing the payment to the court, child support agency, or ex-spouse; and sending the
appropriate notice. COGS adjusts Title II benefits, issues payments to the appropriate
payee as designated in the garnishment order, and issues appropriate notices to the
                                     10
garnished beneficiary and the court.

Court Ordered Garnishment System Process

The manager (or designated representative) of any FO or PC can be served with legal
process to enforce a legal obligation to provide child support and/or make alimony
payments. 11 Processing garnishment orders is the primary responsibility of the FOs,
                                                                    12
while the PCs process garnishment orders served directly to them.

The ZIP Code of the beneficiary determines where the garnishment should be
established. Once a court order is received, a designated employee in the FO or PC
inputs the garnishment order into COGS. There is no requirement for a second,
independent review of the information input into COGS. Within 15 days of processing a
garnishment order through the system, COGS automatically sends the appropriate
garnishment notices to the beneficiary/payee and the court/agency. After the court-
ordered garnishment is input into COGS, it is faxed into a document retrieval system.
The paper copy is stored in the office for 120 days and then destroyed.

SSA’s Office of Retirement and Survivors Insurance Systems (ORSIS) maintains
COGS software through all stages of the life cycle: analysis, requirements, design,
development, testing and validation, and implementation and maintenance. ORSIS
compiles all court-ordered garnishment inputs into reporting spreadsheets, which are
forwarded to the Division of Benefit Certification and Accounting (DBCA) for payment
certification. Once payments are certified, they are sent to the Department of the


10
     SSA’s Modernized Systems Operations Manual - SPECPAYSYS 003.001.
11
     42 U.S.C. §§ 659(b) & (c); 5 C.F.R. § 581.202(b); and SSA, POMS GN 02410.205 A.
12
   POMS, GN 02410.210 A., provides, in part, that processing garnishment orders is the primary
responsibility of the FO. PCs process garnishment orders served directly to them and process COGS-
related alerts and exceptions. If the order is served to an FO or PC other than the servicing FO or PC, the
POMS instructs that the order not be forwarded to the servicing office.
Page 4 - The Commissioner


Treasury (Treasury) to ensure accurate and timely issuance of garnishment benefit
payments.

Conversion from Prior Garnishment System to the Court Ordered Garnishment
System

On March 6, 2006, approximately 180,000 beneficiaries with garnishments were
converted from the manual garnishment system to the automated COGS. These
converted cases have a default start date in COGS of March 6, 2006. The garnishment
amounts included in COGS were the previous amounts in the manual garnishment
system. SSA did not recalculate these garnishments.

The beneficiaries with garnishments that were converted to COGS received a notice
dated March 14, 2006, informing them about their current garnishment liability, the
amount SSA withheld for garnishment, and the monthly payment amount they will
receive.

RESULTS OF REVIEW

Based on our audit, we found that COGS accurately documented payment amounts to
third parties and State child support enforcement agencies. The Office of Systems
sends Treasury a batch file listing each payment record to be garnished. In addition,
we verified the payment address listed on each court order and compared it to the
payment address in COGS.

Our audit disclosed instances where incorrect amounts were being withheld. Also, we
found that SSA did not maintain the court orders. To test COGS, we reviewed 65 court
       13
orders. A summary of our results is as follows.

                                  Table 1 – Audit Results
                                    Description                               Total
                   Accurately Calculated Garnishment Amount                      46
                   Inaccurately Calculated Garnishment Amount                     5
                   Missing Court Orders 14                                       14
                   Total                                                         65




13
   Our sample was taken from a data extract from one segment of the MBR for the period October 1, 2007
through September 30, 2008. Our total population consisted of child support and alimony. The findings in
our sample are all related to child support cases, which are processed by the field offices.
14
   We were unable to locate 14 of the 65 court orders, 2 of which were associated with destroyed paper
folders.
Page 5 - The Commissioner


In reviewing the garnishment orders, we found that the Agency did not maintain
14 (22 percent) of 65 court orders. Also, we found that 5 (10 percent) of the remaining
51 resulted in incorrect amounts being withheld.

Inaccurately Calculated Garnishment Amounts

In reviewing the garnishment orders, we determined whether the COGS amount
withheld was accurate in accordance with the court order and applicable State/Federal
laws. We found that each State can have unique guidelines on how the State
maximum is calculated. The State maximum is based on where the beneficiary
resides. The court-ordered garnishment can be greater than the Title II amount, but the
system will determine the lesser of the Federal or State maximum and the amount that
                                                          15
should be withheld. The Federal maximum withholdings are as follows:

•    50 percent of disposable income if supporting a second family16, with no arrear or
     less than 12 weeks in arrears;
•    55 percent of disposable income if supporting a second family and owes more than
     12 weeks in arrears;
•    60 percent of disposable income if single, with no arrears or less than 12 weeks in
     arrears; and
•    65 percent of disposable income if single and is more than 12 weeks in arrears.

See Appendix C for examples of garnishment calculations.

Based on our audit, 5 (10 percent) of 51 cases resulted in incorrect amounts being
withheld. These five cases were child support garnishments. Based on these
exceptions, we identified an overpayment of $3,394 and an underpayment of $1,774 in
garnishment payments. In these cases, “overpayment” means the beneficiary was
underpaid their Title II benefits, and the court-order recipient (that is, a child) was
overpaid by the same amount. Also, “underpayment” means the beneficiary was
overpaid their Title II benefits, and the court-order recipient (that is, a child) was
underpaid by the same amount. In other words, the underpayment or overpayment of
the beneficiary’s Title II benefits has the opposite effect on the court-ordered payment.




15
 Administration for Children & Families Basic Guidelines for Federal Agencies on Child support
Withholding http://www.acf.hhs.gov/programs/cse/newhire/employer/publication/opm_iw_guidance.htm.
16
  A second family means there are other dependents, a spouse and/or child, for which the employee-
parent has responsibility.
Page 6 - The Commissioner


               Table 2 – Summary of Underpayments and Overpayments
                          Garnishment     Legal
 Case          Benefit      Amount      Allowable Overpayment Underpayment
Number        Amount          Paid       Amount      to Child      to Child
  19          $12,662.00     $ 1,616.40 $ 1,738.08         $ 0.00      $ 121.68
  22           $7,328.00       1,757.20     916.80        840.40           0.00
  30           $6,300.00       2,607.90   3,003.90           0.00        396.00
  37          $10,054.00       4,776.00   6,032.40           0.00      1,256.40
  58          $10,832.00       6,499.20   3,945.60      2,553.60           0.00
 Total        $47,176.00    $17,256.70 $15,636.78      $3,394.00      $1,774.08
Note: The amounts listed in the table are calculated using a 12-month period from October 1,
2007 through September 30, 2008.

We found that three court orders (case numbers 19, 37, and 58) were received before
March 6, 2006 (conversion date to COGS). Therefore, the garnishment amounts included in
COGS were the previous amounts included in the manual garnishment system. SSA did not
recalculate these garnishments since many garnishment cases were old and the court orders
were not maintained.

Case Number 19

The court order requested $144.84 per month. We found that the monthly amount
being deducted was $134.70. 17 Therefore, we estimate the court order amount at
$1,738.08 per year (approximately $144.84 a month). The benefit amount for the year
was $12,662. Conversely, COGS deducted $1,616.40 per year (approximately
$134.70 a month), which resulted in an underpayment to the child of $121.68.

Case Number 22

The court order requested $76.40 per month. The original garnishment order was
established before COGS. A new amendment was sent from the courts on
October 16, 2007 but was entered as a new case resulting in a duplicate garnishment,
starting in November 2007. Therefore, over a 12-month period, COGS deducted
$1,757.20 when the deduction should have been $916.80. The Agency reviewed our
conclusion on this case and agreed to terminate the duplicate garnishment.




17
   Effective December each year, beneficiaries usually receive a Cost-of-Living Allowance (COLA), which
is an annual increase in Social Security benefits to offset the effects of inflation on fixed incomes.
Therefore, two amounts were used to calculate the garnishment totals. The amount before the COLA
(October 2007 through November 2007, or 2 months) and the amount after the COLA (December 2007
through September 2008, or 10 months).
Page 7 - The Commissioner


Case Number 30

Two court orders were applicable in Fiscal Year 2008. The first court order, dated
February 5, 2007, requested $385 per month. The court order was amended on
              18
July 2, 2008. The amendment requested $691.25 per month. The beneficiary
resided in a State that followed the State law maximum for garnishments of 50 percent.
As a result, we found that the maximum allowable garnishment amount was
$257.50 and $263.50 per month. 19 Therefore, we estimate the State law maximum
amount was $3,003.90 per year. 20 The benefit amount for the year was $6,300.
Conversely, COGS deducted $2,607.90 per year ($217.32 a month), which resulted in a
$396 underpayment to the child.

Case Number 37

The court order requested $589.20 per month. The beneficiary resided in a State that
followed the Federal law maximum for garnishments. As a result, the maximum
                                                                   21
allowable garnishment amount was $493.20 and $504.60 per month. Therefore, we
estimate the Federal maximum amount at $6,032.40 per year. The benefit amount for
the year was $10,054. Conversely, COGS deducted $4,776 per year ($398 per month),
which resulted in a $1,256.40 underpayment to the child.

Case Number 58

The court order requested $328.80 per month. The beneficiary resided in a State that
followed the Federal law maximum for garnishments. However, the court order amount
is less than the Federal amount of $531.60 and $543.60 per month. 22 Therefore, we
estimate the court order amount at $3,945.60 per year. The benefit amount for the year
was $10,832. Conversely, COGS deducted $6,499.20 per year ($531.60 and
$543.60 per month), 23 which resulted in an overpayment to the child of $2,553.60.




18
  According to the court order, the garnishment amount should have been $691.25 but was annotated in
pen for $131.50. SSA could not determine why the change on the court order was made and whether the
change was made by the court or an SSA employee.
19
     See Footnote 17.
20
  In October 2007 the beneficiary had a $14.40 Medicare arrearage deduction reducing the monthly
payment to $243.10. Also, in June 2008 the beneficiary had a $131.70 overpayment deduction reducing
the monthly payment to $131.80.

21
     See Footnote 17.
22
     See Footnote 17.
23
     See Footnote 17.
Page 8 - The Commissioner


Missing Garnishment Court Orders

In reviewing the garnishment orders, we found that the Agency did not maintain
14 (22 percent) of 65 court orders. Therefore, we were unable to verify the accuracy of
these garnishment amounts.

These missing court orders are the result of several Agency policy changes to POMS
(GN 02410.210) on maintaining the garnishment court orders. Before COGS was
established on March 6, 2006, SSA required that PCs maintain the court orders while
FOs only maintain a manual log of the court orders. Based on our audit, 7 of the 14
missing garnishment orders existed before COGS was established.
                                                                     24
After March 6, 2006, the court orders were to be faxed to the PCs. During the
timeframe of our audit, SSA policy 25 directed that the entire garnishment court order be
faxed into a document retrieval system (such as Electronic Disability claim filing record
or Non-Disability Repository Evidentiary Document), stored in the office for 120 days,
and then destroyed. Based on our audit, 7 of 14 missing garnishment orders were
requested after COGS was established. Therefore, the FOs and PCs should have
faxed the entire garnishment court order into a document retrieval system in
accordance with POMS. The lack of supporting documentation may result in improper
garnishment of Title II benefits.

CONCLUSION AND RECOMMENDATIONS

We found that 5 (8 percent) of 65 cases resulted in incorrect amounts being withheld.
Also, SSA did not maintain the court orders in 14 (22 percent) of 65 cases. Therefore,
we recommend that SSA:

1. Ensure the five garnishments in this report are corrected.

2. Remind staff to follow existing policies and procedures that require all new,
   amended, and terminated garnishment orders to be faxed into the document
   retrieval system for later access.




24
  POMS, GN 02410.210, May 19, 2006 to December 20, 2007, 6. After the Field Office completes the
COGS input, complete this form and fax it along with a copy of the entire garnishment order for
PRONGFILE-NO ACTION NECESSARY into the paperless fax number of the jurisdictional Processing
Center.
25
  POMS, GN 02410.210 A.6. (Effective October 28, 2009, POMS was revised to remove the 120 days
retention requirement, however for our audit timeframe this requirement was still applicable).
Page 9 - The Commissioner



AGENCY COMMENTS
SSA agreed with the recommendations. The Agency’s comments are included in
Appendix D.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Examples of Garnishment Calculations
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act        Social Security Act
COGS       Court Ordered Garnishment System
COLA       Cost-of-Living Allowance
DBCA       Division of Benefit Certification and Accounting
DCO        Deputy Commissioner for Operations
FO         Field Office
MBR        Master Beneficiary Record
OIG        Office of the Inspector General
ORSIS      Office of Retirement and Survivors Insurance Systems
PC         Processing Center
POMS       Program Operations Manual System
SSA        Social Security Administration
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

      Reviewed applicable State/Federal laws and regulations, pertinent parts of the
       Social Security Administration’s (SSA) Program Operations Manual System, and
       other relevant criteria.

      Interviewed staff with the Office of Retirement and Survivors Insurance Systems
       and the Division of Benefit Certification and Accounting.

      Obtained a data extract from one segment (segment 14) of SSA’s Master
       Beneficiary Record from October 1, 2007 through September 30, 2008. From
       this segment, 12,798 garnishments were identified as the sample population.
       Two sampling frames were identified.

      Selected 65 court-order garnishments from these 2 sampling frames.

          First sampling frame – 12,783 Garnishments: We randomly selected 50 of
           12,783 court-order garnishments related to 12,783 individuals. Each
           garnishment represents one individual with a garnishment action against their
           record.
          Second sampling frame – 15 Garnishments: We reviewed all 15 court-order
           garnishments related to 7 individuals. Each individual had multiple
           dependents (that is, spouse or child) listed on their record with a garnishment
           action(s).

      Obtained the court-order garnishments for the two sample groups.

      Obtained Court Ordered Garnishment System (COGS) data.

      Compared court-order garnishment amounts to the COGS data to determine
       accuracy. Also, we compared the court-order garnishment payment address to
       the COGS payment address data to determine accuracy.

      Visited one Baltimore field office to observe the input of the court-order
       garnishments into COGS.




                                            B-1
                                             -
We performed our audit at SSA Headquarters from September 2008 through July 2009.
We found the data used for this audit were sufficiently reliable to meet our objectives.
The entities audited were the Offices of Retirement and Survivors Insurance Systems
and Public Services and Operations Support.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.




                                          B-2
                                           -
                                                                       Appendix C

Examples of Garnishment Calculations
Example A

A beneficiary’s monthly Title II benefit is $600, and the garnishment request is for $500.
The beneficiary lives in California, does not support another family, and is not past due
on support payments. According to Federal law, the beneficiary’s deduction should be
60 percent of his/her disposable income (monthly Title II benefit). However, California’s
State maximum garnishment amount is 50 percent of disposable income. Therefore,
the Court Ordered Garnishment System (COGS) will apply the lesser of the two which
is the State law and garnish $300 ($600 x 50 percent) from the beneficiary’s monthly
Title II benefits. If the garnishment request was for $200, COGS would use the same
logic and apply the $200 court order amount from the beneficiary’s Title II benefits.

Example B

A beneficiary’s monthly Title II benefit is $500, and the garnishment request is for $400.
The beneficiary lives in Georgia and does not support another family, but owes more
than 12 weeks of past due support. According to Federal law, the beneficiary’s
deduction should be 65 percent of his/her disposable income (monthly Title II benefit).
The State of Georgia follows the Federal law. Therefore, COGS will apply the Federal
law and garnish $325 ($500 x 65 percent) from the beneficiary’s monthly Title II
benefits. If the garnishment request was for $300, then COGS would apply the
$300 court order amount from the beneficiary’s Title II benefits.
                  Appendix D

Agency Comments
                                               SOCIAL SECURITY

MEMORANDUM


Date:      December 18, 2009                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel          //s//
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Accuracy of the Garnishment of
           Title II Benefits by the Social Security Administration’s Court Ordered Garnishment System”
           (A-15-09-19063)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE ACCURACY OF THE GARNISHMENT OF TITLE II BENEFITS BY THE
SOCIAL SECURITY ADMINISTRATION’S COURT ORDERED GARNISHMENT
SYSTEM” (A-15-09-19063)

Our responses to the specific recommendations are provided below.

Recommendation 1

Ensure the five garnishments in this report are corrected.

Comment

We agree. We have already corrected the garnishments for the five cases that OIG identified.

Recommendation 2

Remind staff to follow existing policies and procedures that requires all new, amended, and
terminated garnishment orders to be faxed into the document retrieval system for later access.

Comment

We agree. We will issue a reminder to staff to follow existing garnishment order policies and
procedures.




[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Mark Meehan, Audit Manager

Acknowledgments

In addition to those named above:

   Tonia Hill, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-19063.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
